App. 1
Judgment rendered August 15,
2018. Application for rehearing
may be filed within the delay al­
lowed by Art. 2166, La. C.C.P.
No. 52,181-CA
COURT OF APPEAL
SECOND CIRCUIT
STATE OF LOUISIANA
^ ^ ^ ^ ^

SUCCESSION OF FRED LANGFORD HOUSTON
* * * *

Appealed from the
First Judicial District Court for the
Parish of Caddo, Louisiana
Trial Court No. 525,127
Honorable Ramon Lafitte, Judge
* * * *

Counsel for Appellant
PETTIETTE, ARMAND,
DUNKELMAN, WOODLEY,
BYRD & CROMWELL, L.L.P.
By: Lawrence W. Pettiette, Jr.
Joseph S. Woodley
Counsel for Appellee
WIENER, WEISS &
MADISON
By: John M. Frazier
R. Joseph Naus
Seth M. Moyers
Charles E. Tabor
Marjorie L. Frazier
^

^

Before MOORE, PITMAN, and COX, JJ.

App. 2
COX, J.
This appeal arises from the First Judicial District
Court, Caddo Parish, Louisiana. A jury found Hanh
Williams (“Ms. Williams”) breached her fiduciary duty
as trustee of the Fred L. Houston Inter Vivos Trust
(“Trust”) and executrix of Fred Houston’s (“Mr. Hou­
ston”) estate (“Estate”). The jury charged Ms. Williams
with $1.1 million in damages for breach of duty to the
Trust and determined she was liable to the Estate for
$460,605. Ms. Williams has appealed the jury’s verdict.
For the following reasons, we affirm.
FACTS
Mr. Houston was the widower of Eleanor Houston.
Eleanor was the only wife of Mr. Houston, and he had
no children. Eleanor Houston died in 2002, leaving a
life insurance policy payable to Mr. Houston. Mr. Hou­
ston took the life insurance policy to Jefferson Pilot in
Shreveport, Louisiana. Ms. Williams assisted Mr. Hou­
ston in collecting the proceeds of the life insurance pol­
icy. Over time, Ms. Williams became involved in all of
Mr. Houston’s financial affairs, including managing oil
and gas interests.
Mr. Houston gave Ms. Williams his power of attor­
ney on September 2,2003. On August 3,2005, Mr. Hou­
ston formed the Trust and designated Ms. Williams as
the trustee. Most of Mr. Houston’s assets were placed
into the Trust. The Trust would terminate if either
Mr. Houston or Ms. Williams died. Under the terms of
the Trust, Ms. Williams was to be compensated a “base

App. 3
compensation of 50% of all revenue received by the
Trust from Samson Contour Energy E & P, LLC, or its
successor in interest, as payment or partial payment of
that working interest!.]”
Mr. Houston had an oil, gas, and mineral lease
with Tenneco Oil Co. in DeSoto Parish, Louisiana,
which was placed into the Trust. On April 21, 2006,
George Olsen, Jr. (“Mr. Olsen”), offered to buy the
DeSoto Parish mineral lease for $32,000. Mr. Houston
transferred the mineral lease to Mr. Olsen for $35,000.
Mr. Olsen stated he and Ms. Williams were former
business associates and partners. Mr. Olsen also stated
that he initially agreed to compensate Ms. Williams
with a “finder’s fee” or “commission” of 10 percent of
the consideration paid for the lease, but ultimately
agreed to transfer 50 percent of the mineral lease to
Ms. Williams for $14,000.1 Mr. Olsen stated Ms. Wil­
liams had concerns that the documents of the transac­
tion would show acts of self-dealing by her, as the
trustee.
Ms. Williams stated that she did not agree with
the transfer of the mineral lease, and she negotiated
with Mr. Olsen to try to recover the lease interest for
Mr. Houston. She stated that after buying the 50 per­
cent interest from Mr. Olsen, she told Mr. Houston, and
he did not want the interest back.

1 Instead of having Ms. Williams pay 50% of the 35,000, Mr.
Olsen still gave her a 10% “finder’s fee” and reduced her cost to
40% of the 35,000 (35,000 x 0.4=14,000), which meant she paid
$14,000 for her interest.

App. 4
On January 31,2006, Mr. Houston executed a will,
which provided for the following:
(1) The sum of Five Thousand and No/100
($5,000.00) Dollars to the town of Plain Deal­
ing, Louisiana Cemetery Fund in memory of
Leonard Collin Holland Houston, Faye Davis
Houston and Gloria Houston Harris.
(2) The sum of Five Thousand and No/100
($5,000.00) Dollars to the Northwest Louisi­
ana Humane Society in care of Yvonne Mullinax, P.O. Box 52442, Shreveport, Louisiana
71135.
(3) One Princess style ring purchased in
Thailand formerly belonging to Eleanor Holly
Houston to go to Gloria Gail Breedlove.
(4) The sum of Ten Thousand and No/100
($10,000.00) Dollars to the First United Meth­
odist Church of Coushatta, Louisiana.
(5) One .22 Caliber semi automatic Ruger
rifle to go to Grant M. Williams.
(6) A Collection of butterfly pens belonging
to Eleanor Houston to go to Rachel L. Wil­
liams.
(7) The remainder of my estate is to be
sold with the proceeds to go to the benefit
of the Louisiana State University of Baton
Rouge, Louisiana, School of Veterinary Medi­
cine, for continued ontological research in
memory of Amanda and Callie, beloved pets
of Fred and Eleanor Houston. The independ­
ent Executor named hereinafter has the

App. 5
authority to accomplish this bequest through
the establishment of a testamentary trust or
a foundation in order to create a means for ac­
complishing the intent of this will. I do hereby
appoint Hanh T. Williams as the independent
Executor of my estate, with full seizin and
without bond and fix her compensation for
liquidating and administering the provisions
of this will at 20% of the value of my estate
less the seven (7) specific bequests indicated
above.
Mr. Houston passed away in Caddo Parish, Louisi­
ana, on September 23, 2008. Ms. Williams petitioned
for probate on September 30, 2008, and the first six
legacies under the will were distributed. LSU was
made aware of its legacy through Lewis DeMoss, Mr.
Olsen, and an anonymous letter.
LSU filed a motion seeking an interim accounting
on July 1, 2009. On September 23, 2009, Ms. Williams
filed the first accounting of the Estate, which included
September 23, 2008, through September 15, 2009. On
September 7, 2010, by agreement between the parties
and trial court, Armand Roos (“Mr. Roos”) was con­
firmed as Dative Independent Executor of the succes­
sion. Mr. Roos believed assets were missing from the
Estate accounting provided by Ms. Williams. Mr. Roos
also believed Ms. Williams had improperly distributed
estate assets to herself. Mr. Roos filed suit on October
31, 2011, against Ms. Williams asserting numerous
causes of action for breach of fiduciary duty in her ca­
pacities as trustee and executrix. Several motions in

App. 6
limine were filed by both parties. A jury trial began on
October 31, 2016.
During her time working with Mr. Houston, Ms.
Williams kept a log of the work she performed for him.
The following log entries were presented to the jury,
showing hours billed by Ms. Williams:
12/20/2006, Christmas lunch with Fred, gifts,
2 hours.
12/25/2006, Christmas Day, Fred came to
Christmas dinner with my family. Everyone
was here. He seemed to enjoy talking to eve­
ryone. Got his mail, talked a little about Sam­
son. 5 hours.
5/31/2006, Fred’s Birthday, call him in the
A.M. Melissa called back about Fred not doing
well, need to go to doctor, called doctor’s office.
His next appointment on the 20th of June.
Having problems with Melissa. 2 hours.
In addition to these log entries, the jury was pre­
sented with evidence that Ms. Williams charged the
Estate for flowers for Mr. Houston’s funeral, visiting
Mr. Houston’s grave on his birthday, and numerous al­
coholic drinks and meals at restaurants. Ms. Williams
explained to the jury that she charged the meals and
drinks because it was cheaper to buy those when meet­
ing with the attorney versus the hourly rate she would
have been charged by the attorney. She stated that she
met with the attorney in regard to business with Mr.
Houston. As to the other charges and entries into the
log, Ms. Williams explained that Mr. Houston preferred

App. 7
to reimburse her for expenses and he wanted her to
keep up with the time. She stated these were things
Mr. Houston insisted on paying for while he was alive.
The jury also heard testimony from the account­
ants of both parties, explaining how and why transac­
tions were attributed to Ms. Williams. Two daughters,
whose father is a current client of Ms. Williams, also
testified before the jury. The first daughter, Ms. Rhodes,
testified that Ms. Williams was in attendance at all
family gatherings, her father refused to talk to her
without Ms. Williams present, she was no longer in her
father’s will, and she had concerns about Ms. Williams.
The second daughter, Ms. Crosslin, stated Ms. Rhodes
never sees her father and does not have a relationship
with him. Ms. Crosslin also testified that she takes
care of her father, trusts Ms. Williams with both her
father’s and her own finances, and believes the present
suit against Ms. Williams was brought about by un­
happy family members of Mr. Houston.
The jury trial lasted 2 1/2 weeks. After deliberat­
ing approximately 50 minutes, the jury rendered the
present verdict against Ms. Williams by a vote of 9-3,
awarding the damages listed above. Ms. Williams filed
a motion for judgment notwithstanding the verdict or
in the alternative, motion for a new trial, which were
both denied. Ms. Williams then filed an appeal with
this court. Ms. Williams requests this court remand the
case for a new trial.

App. 8
DISCUSSION
Mr. Roos’s testimony and actions
In her first assignment of error, Ms. Williams ar­
gues the trial court committed error in allowing Mr.
Roos to testify as the plaintiff’s primary witness be­
cause he was also an attorney of record. After being ap­
pointed as the Independent Executor, Mr. Roos, as a
licensed attorney, elected to represent himself. He also
enrolled the representation of other attorneys. Ms. Wil­
liams argues Mr. Roos shielded himself at his deposi­
tion by using attorney-client privilege. She argues that
Mr. Roos’s protected deposition, coupled with his abil­
ity to testify, deprived Ms. Williams of a fair trial.
Although Louisiana statutory law does not di­
rectly establish a right of self-representation in civil
cases, Louisiana jurisprudence firmly establishes this
right. Dixon v. Shuford, 28,138 (La. App. 2 Cir. 4/3/96),
671 So. 2d 1213. The right of self-representation is
provided for statutorily under federal law. 28 U.S.C.
§ 1654.
Rule 3.7 of the Louisiana Rules of Professional
Conduct prohibits a lawyer from acting as an advocate
in a trial in which the lawyer is likely to be called as a
necessary witness except under certain circumstances.
It provides in pertinent part:
(a) A lawyer shall not act as advocate at a
trial in which the lawyer is likely to be a nec­
essary witness except where:

App. 9
(1) The testimony relates to an uncon­
tested issue;
(2) The testimony relates to the nature
and value of legal services rendered in
the case; or
(3) disqualification of the lawyer would
work substantial hardship on the client.
(b) A lawyer may act as advocate in a trial in
which another lawyer in the lawyer’s firm is
likely to be called as a witness unless pre­
cluded from doing so by Rule 1.7 or Rule 1.9.
Rule 3.7 does not address the situation where the
lawyer is representing himself. However, the Louisiana
Supreme Court has agreed with other jurisdictions
that Rule 3.7 does not apply to the situation where the
lawyer is representing himself. Farrington v. Law Firm
of Sessions, Fishman, 96-1486 (La. 2/25/97), 687 So. 2d
997.
In the current case, Mr. Roos was appointed as In­
dependent Dative Executor, and it was in this capacity
that he brought suit against Ms. Williams. Mr. Roos is
an attorney and elected to enroll himself as counsel in
the case. The trial court allowed Mr. Roos to testify
about his own actions and the allegations he made
against Ms. Williams. Mr. Roos was not permitted to
give an opinion because he was not qualified as an ex­
pert in the case.
Ms. Williams also argues Mr. Roos acted inappro­
priately by shaking hands with the trial judge and wit­
nesses. She states that while in the presence of the

App. 10
jury, Mr. Roos shook hands with the judge after testi­
fying. She also claims Mr. Roos shook hands with and
clasped the shoulders of two of Ms. Williams’s wit­
nesses, attorneys Jerry Jones and Curtis Shelton. Ms.
Williams moved for a mistrial, which was denied.
Mr. Roos argues the encounters with Jones and
Shelton occurred in the hallway outside the courtroom.
There are clear, glass doors leading into the hallway
from the courtroom. Mr. Roos argues there is no evi­
dence that the jury saw the handshakes through the
glass. When the issue was raised at trial, the trial
judge stated that he did not see the encounters in the
hallway.
Mr. Roos concedes that he briefly shook hands
with the trial judge when leaving the witness stand.
When the issue was raised at trial, the trial judge
stated that the handshake occurred while the jury was
leaving the courtroom. He stated that only two or three
members of the jury were still in the courtroom and
that there was no evidence those jurors actually saw
the encounter.
Because a mistrial is a drastic remedy, it should be
granted only when the error results in substantial
prejudice sufficient to deprive the defendant of any
reasonable expectation of a fair trial. The decision to
grant or deny a mistrial for prejudicial conduct rests
within the trial court’s discretion and will not be dis­
turbed absent clear abuse of discretion. State v. Law­
rence, 40,278 (La. App. 2 Cir. 3/15/06), 925 So. 2d 727.

App. 11
The record shows that the trial court did not abuse
its discretion in denying Ms. Williams’s motion for mis­
trial based on Mr. Roos’s actions. The trial judge stated
that based on the layout of the courtroom, the timing
of the handshakes, and the fact that he did not see Mr.
Roos shaking hands with witnesses through the glass
door, that Ms. Williams’s trial was not substantially
prejudiced. Based on the complete trial record, we do
not find there was a clear abuse of discretion.
Mr. Roos was permitted not only to represent him­
self, but also to testify about his own actions. The trial
court did not abuse its discretion in denying Ms. Wil­
liams’s motion for mistrial. This assignment of error
lacks merit.
Significant interruptions
Ms. Williams argues that significant interruptions
of the jury trial resulted in unfair prejudice. She states
the start-stop nature of the trial, combined with week­
ends, was prejudicial to her defense.
The court has the power to require that the pro­
ceedings shall be conducted with dignity and in an or­
derly and expeditious manner, and to control the
proceedings at the trial, so that justice is done. La.
C.C.R art. 1631. The trial court has great discretion in
directing the manner in which proceedings are con­
ducted, and only upon a showing of a gross abuse of
that discretion will the appellate court intervene.
Youngblood v. Lee, 40,314 (La. App. 2 Cir. 11/2/05), 914

App. 12
So. 2d 1186, writ denied, 2006-0088 (La. 4/17/06), 926
So. 2d 522.
Ms. Williams cites State v. Bowers, 42,390 (La. App.
2 Cir. 9/19/07), 965 So. 2d 959, writ denied, 2007-2055
(La. 3/14/08), 977 So. 2d 929, arguing it is an analogous
factual circumstance in a criminal bench trial. We do
not find Bowers to be in support of this argument.
The Bowers trial began on September 30, 2005,
and was continued on November 14 and December 19,
2005, and January 30, and February 6,24 and 28,2006.
The main explanation in the record for the widely
spaced trial dates was that the judge was unavailable
for other dates. In Bowers, this court stated, “While
this procedure seems unusual, it does not strike us as
an abuse of discretion. Notably, this was a bench trial,
so inconvenience to the jury was not an issue, and any
disruption in the flow of the evidence would seem more
likely to prejudice the state than the defense.” Before
finding this assignment of error lacked merit, this
court also noted that trial counsel did not object to the
progress of the trial.
In the instant case, Ms. Williams raised this issue
of interruptions before the trial and asked for a contin­
uance. The continuance was denied. The following is a
list of pertinent dates:
•

10/31/2011: Original petition for breach
of duty (Mr. Roos subsequently filed two
amended petitions)

i

App. 13
5/8/2014: Answer to petition
5/13/2014: Order for trial by jury
10/7/2014: Jury trial set for 9/8/2015
8/21/2015: Motion to continue trial filed
by Mr. Roos, stating he has been waiting
on production of documents from Ms. Wil­
liams since March 2014.
8/31/2015: Opposition to continuance
9/2/2015: Motion to continue trial granted
5/12/2016: Jury trial reset for 10/31/2016
10/31/2016 (Monday): Jury selected
11/1/2016 (Tuesday): All Saints Day (Court­
house Closed)
11/2/2016 (Wednesday): Jury trial- Plain­
tiff’s witnesses
11/3/2016 (Thursday): Jury trial- Plain­
tiff’s witnesses (Half day of court because
of annual memorial services)
11/4/2016 (Friday): Jury trial- Plaintiff’s
witnesses; 1st Defense witness
11/7/2016 (Monday): (Clerk Holiday- No
court)
11/8/2016 (Tuesday): Election Day (Court­
house Closed)
11/9/2016 (Wednesday): 11/10/2016 (Thurs­
day): Jury trial- defense witnesses

App. 14
•

11/11/2016 (Friday): Veterans Day (Court­
house Closed)

•

11/14/2016 (Monday): Jury trial- Defense
witness

•

11/15/2016 (Tuesday): Jury trial- closing
statements; jury deliberation 12:14 p.m. 1:05 p.m.

After the jury was selected, the trial took about six
days, spanning over two weeks. The reason for the de­
lay was multiple court holidays. The trial judge did not
have the option of holding court on holidays. The plain­
tiff’s case was presented first, before the delays. This
argument could also be used by the plaintiff because of
the delays between the presentation of his case and the
conclusion of the trial. Arguably, the delays provided
more time to the jury to process the defense’s evidence
as it was presented. The trial court has great discretion
in conducting the proceedings. Based on the record, we
find no abuse of that discretion, and this assignment of
error lacks merit.
Evidence violations
Ms. Williams argues evidence was improperly al­
lowed, in violation of La. C.E. arts. 402, 403, and 404.
Specifically, she argues testimony and evidence from
Mr. DeMoss and Ms. Rhodes about her current clients
and other lawsuits should not have been allowed. Ms.
Williams brought this argument before the trial court
in a motion in limine. The trial court held that testi­
mony about other clients and other lawsuits would be

►

App. 15
admissible only to the extent it showed a pattern. Fur­
ther, the jury was instructed that Ms. Williams could
be excused from liability pursuant to La. R.S. 9:2208 if
she acted “honestly and reasonably.”
The trial court is granted broad discretion in its
evidentiary rulings, which will not be disturbed absent
a clear abuse of that discretion. On appeal, the court
must consider whether the complained-of ruling was
erroneous and whether the error affected a substantial
right of the party affected. If not, a reversal is not war­
ranted. The determination is whether the error, when
compared to the entire record, has a substantial effect
on the outcome of the case, and it is the complainant’s
burden to so prove. La. C.E. art. 103; Johnson u. Thicker,
., writs
So. 2d
51,723 (La. App. 2 Cir. 11/15/17),
denied, 2017-2075, -2073 (La. 2/9/18), 236 So. 3d 1262,
1266.
La. C.E. art. 404(B)(1) provides, in pertinent part:
Except as provided in Article 412, evidence of
other crimes, wrongs, or acts is not admissible
to prove the character of a person in order to
show that he acted in conformity therewith. It
may, however, be admissible for other pur­
poses, such as proof of motive, opportunity, in­
tent, preparation, plan, knowledge, identity,
absence of mistake or accident [.]
La. C.E. art. 404 applies to both civil and criminal
trials. Generally, evidence of character, a particular
character trait, or a prior or subsequent act, is inad­
missible to prove that a person acted in conformity

App. 16
therewith on a particular occasion. La. C.E. art. 404(A)
and (B); Williams v. Bd. ofSup’rs ofUniv. of Louisiana
Sys., 48,763 (La. App. 2 Cir. 2/26/14), 135 So. 3d 804,
writ denied, 2014-0666 (La. 5/2/14), 138 So. 3d 1249.
However, La. C.E. art. 404(B) provides an exception to
this general rule when the prior acts are used to show
intent, plan, or the absence of a mistake or accident.
Mr. Roos introduced the testimony of Mr. DeMoss
and Ms. Rhodes to show a planned pattern in Ms. Wil­
liams’s work with her clients and that her actions were
not accidental. Mr. DeMoss was hired by Ms. Williams
as CPA for the Trust. Mr. DeMoss testified that he
started an LLC with Ms. Williams. He stated he was
named on the LLC paperwork and she was the silent
partner.2 Mr. DeMoss testified that Ms. Williams helped
an 80-year-old widower with his finances. She told Mr.
DeMoss that they could buy some of the widower’s
property for what Mr. DeMoss felt was well underval­
ued. Mr. DeMoss, Ms. Williams, and the LLC were ul­
timately sued by the widower and his children for
lesion beyond moiety. Mr. DeMoss also said he ques­
tioned Ms. Williams’s trustee fees and asked if that
was the proper amount. He stated that after he
2 Mr. DeMoss stated the LLC was named HLM, LLC and
that the “H” stood for Hanh. Ms. Williams confirmed she was in­
volved in the LLC in the following exchange with the trial court:
THE COURT: Were you the H. in HLM?
MS. WILLIAMS: That’s the name THE COURT: I’m asking you were you. Did that H.
stand for Hahn?
MS. WILLIAMS: That’s what he just said, yes.

i

App. 17
questioned her, he was no longer asked to prepare the
Trust tax returns.
Mr. DeMoss’s testimony was used to show that Ms.
Williams helped an elderly widower with his finances,
then purchased property from him, and was ultimately
involved in a lawsuit over the purchased property. This
scenario is similar to the current case because Mr.
Houston was also an elderly widower when Ms. Wil­
liams began working with him. Ms. Williams helped
Mr. Houston with his finances, as well as served as
trustee of his Trust, before purchasing a mineral inter­
est, which was initially owned by the Trust.
Ms. Rhodes testified that Ms. Williams began
working with her father, Mr. Madden, after his wife
died. Ms. Rhodes stated that Ms. Williams became in­
creasingly involved in her father’s finances and was a
“fixture” in his personal life as well. She testified that
Ms. Williams was present at family gatherings, includ­
ing Christmas and Thanksgiving. She stated that her
father transferred his investments over to Ms. Wil­
liams. Ms. Rhodes stated that she attempted to discuss
with her father the concerns she had regarding Ms.
Williams’s involvement in his life, but was not able to
because her father insisted Ms. Williams be present
anytime they spoke. Ms. Rhodes stated it was her un­
derstanding that she is no longer a part of his estate.
Ms. Williams was able to rebut the testimony of
Ms. Rhodes with Mr. Madden’s other daughter, Ms.
Crosslin. Ms. Crosslin testified that she trusted Ms.
Williams with her father’s investments, as well as her

App. 18
own. She stated Ms. Williams had done a good job with
their investments and helping to organize care for her
father. Ms. Crosslin also stated that it was her under­
standing that the instant case involved a will and that
Mr. Houston “had some family that wasn’t happy and
all this came about because of that[.]”
Other acts are admissible to prove intent, plan, or
lack of mistake. Because Ms. Williams argued she had
a father-daughter relationship with Mr. Houston, her
intentions in managing his finances was at issue. Both
of these witnesses were used to demonstrate a pattern
of relationships between Ms. Williams and elderly wid­
owers, of whom she arguably took advantage. Under
these circumstances, the trial court did not err in ad­
mitting the evidence of Ms. Williams’s pattern of rela­
tionships and acts regarding elderly widowers. This
assignment of error lacks merit.
Restricted testimony
Ms. Williams argues her own testimony was im­
properly restricted. Mr. Roos’s counsel objected when
Ms. Williams testified as to what Mr. Houston told her
or the reason Mr. Houston took certain actions. Mr.
Roos’s counsel also objected to Ms. Williams’s answers
on cross-examination as unresponsive to the question.
The following is an example of counsel’s objection for a
nonresponsive answer:
Q: Ms. Williams, can you show the jury or
the Court the receipts for those expenses that
you were reimbursing yourself the $30,000?

App. 19
A: I don’t have a receipt. I don’t ask Fred to
write a receipt when I give him cash, and I’m
really not wanting to sit here and talk about
his bad habits with prostitutes and substance
habit, but you brought that up in the autopsy
report. Now, do I want to go and ask him every
time I give him cash or receipt, absolutely not.
MR. TABOR:3 Your Honor THE WITNESS: He made it under­
stood this was his money.
THE COURT:
liams. Yes?

Hold on, Ms. Wil­

MR. TABOR: I haven’t asked her
about any of this substance abuse
and prostitution.
THE WITNESS:

You asked me -

THE COURT: Sustained. Hold on.
Hold on. Wait a minute.
As stated above, the trial court is granted broad
discretion in its evidentiary rulings, which will not be
disturbed absent a clear abuse of that discretion. John­
son, supra.
We have thoroughly read the trial transcript
and find these objections by plaintiff’s counsel were
properly sustained as either hearsay under La. C.E.
art. 803 or unresponsive to the question asked.

3 Mr. Tabor is counsel for the Estate.

App. 20
Ms. Williams further argues that because English
is not her first language, the interruptions and rulings
were unfair, frustrating, and an impediment to her
ability to tell the jury what happened. According to
Ms. Williams’s testimony, she has been in the United
States for over 30 years, graduated from Caddo Mag­
net High School, studied business at LSU in Shreve­
port, speaks five languages, is a Certified Financial
Planner, and obtained the following professional li­
censes: insurance license, Louisiana Underwriter
Training Council Fellow license, Chartered Life Insur­
ance license, and securities licenses. Although English
may not be Ms. Williams’s first language, she has been
successful in obtaining an education and professional
licenses in the United States while using the English
language. This assignment of error lacks merit.
Jury verdict clearly erroneous
Ms. Williams argues the jury verdict was clearly
erroneous based upon the evidence, particularly a find­
ing of gross negligence. She argues that the testimony
of her defense witnesses, who had personal knowledge
of Mr. Houston and Ms. Williams, should not be
trumped by the testimony of the plaintiff’s witnesses,
who had no personal knowledge of Mr. Houston.
A court of appeal’s review of a trial court’s or jury’s
finding of fact is well settled, as detailed by the Louisi­
ana Supreme Court in Rosell v. ESCO, 549 So. 2d 840
(La. 1989):

App. 21
It is well settled that a court of appeal
may not set aside a trial court’s or a jury’s
finding of fact in the absence of “manifest er­
ror” or unless it is “clearly wrong,” and where
there is conflict in the testimony, reasonable
evaluations of credibility and reasonable in­
ferences of fact should not be disturbed upon
review, even though the appellate court may
feel that its own evaluations and inferences
are as reasonable. The appellate review of fact
is not completed by reading only so much of
the record as will reveal a reasonable factual
basis for the finding in the trial court, but if
the trial court or jury findings are reasonable
in light of the record reviewed in its entirety,
the court of appeal may not reverse even
though convinced that had it been sitting as
the trier of fact, it would have weighed the ev­
idence differently. Where there are two per­
missible views of the evidence, the factfinder’s
choice between them cannot be manifestly er­
roneous or clearly wrong[.]
When findings are based on determina­
tions regarding the credibility of witnesses,
the manifest error-clearly wrong standard de­
mands great deference to the trier of fact’s
findings; for only the factfinder can be aware
of the variations in demeanor and tone of
voice that bear so heavily on the listener’s un­
derstanding and belief in what is said. Where
documents or objective evidence so contradict
the witness’s story, or the story itself is so in­
ternally inconsistent or implausible on its
face, that a reasonable fact finder would not
credit the witness’s story, the court of appeal

App. 22
may well find manifest error or clear wrong­
ness even in a finding purportedly based upon
a credibility determination. But where such
factors are not present, and a factfinder’s find­
ing is based on its decision to credit the testi­
mony of one of two or more witnesses, that
finding can virtually never be manifestly er­
roneous or clearly wrong, (citations omitted)
The rule of law requiring an appellate court to ex­
ercise great restraint before upsetting a jury verdict is
based, in part, on respect for the jury determination
rendered by citizens chosen from the community who
serve a valuable role in the judicial system. This policy
requires an appellate court to presume a jury will not
disregard its sworn duty and be improperly motivated,
and will render a decision based on the evidence and
the totality of the instructions provided by the judge.
Adams v. Rhodia, Inc., 2007-2110 (La. 5/21/08), 983 So.
2d 798; Goldsby v. Blacker Through Dep’t ofTransp. &
Dev., 51,584 (La. App. 2 Cir. 9/27/17)__ So. 2d___ .
The jury heard ample testimony from witnesses
from both sides regarding Ms. Williams’s actions. Ms.
Williams presented evidence from two accountants,
Tom Chavanne and Larry Porter, each of whom per­
formed work for either the Trust or Estate. The plain­
tiff offered testimony from Elizabeth Killough, an
accountant who performed forensic accounting of the
Trust and Estate.
As discussed above, the plaintiff presented testi­
mony from Mr. DeMoss and Ms. Rhodes regarding
other clients and a consequential lawsuit. To counter

App. 23
that testimony, Ms. Williams offered testimony herself,
as well as testimony from Ms. Crosslin.
Ms. Williams offered testimony herself of the fatherdaughter relationship she had with Mr. Houston. Jerry
Jones, Fred Yost, and Pam Branagan also gave per­
sonal accounts of the relationship between Mr. Hou­
ston and Ms. Williams. Jerry Jones, the attorney who
drafted the Trust, testified at trial:
I was concerned whether Ms. Williams was
taking advantage of Mr. Houston or not, so I
asked her to leave the room. I spent maybe an
hour with him just one on one, and it became
very clear to me that he had a very sincere
fear that his own destructive habits were go­
ing to diminish his income[.] In his words,
she’s like the daughter I never had[.]
The jury listened to all of these testimonies, some
of which were in conflict. The jury had a choice between
two permissible views of the evidence. Either Ms. Wil­
liams breached her fiduciary duty to the degree of
gross negligence, or she did not. The jury chose the
view that she breached her duty. The jury is permitted
to credit the testimony of Mr. Roos’s witnesses over the
testimony of Ms. Williams’s witnesses. After reviewing
the entire record, we conclude it was reasonable for the
jury to find that Ms. Williams breached her fiduciary
duty to the level of gross negligence.

App. 24
Misleading testimony
Ms. Williams argues the misleading testimony of
Mr. Roos’s retained accountant, Ms. Killough, was sig­
nificant enough to justify a mistrial. Ms. Killough is an
accountant who was hired by Mr. Roos to perform fo­
rensic accounting of the Trust and Estate. At the trial,
Ms. Killough stated that she did not receive Ms. Wil­
liams’s personal bank account statements, which she
stated would have been helpful. Later in the trial, Mr.
Roos’s counsel introduced Ms. Williams’s bank account
statement.
Ms. Williams moved for mistrial, arguing the tes­
timony that Ms. Killough was not given the statements
and the later production of the statements was preju­
dicial. The trial court denied the mistrial and stated,
“She made a statement that was misrepresentation,
that’s not a grounds for mistrial because a witness gets
on the stand and makes a misrepresentation is not
grounds for mistrial [.]”
The court on its own motion, or on the motion of
any party, after hearing, may grant a mistrial. La.
C.C.R art. 1631. Because a mistrial results in the dis­
charge of one jury and the impaneling of another to try
the case anew, it is a drastic remedy. Burks v. McKean,
559 So. 2d 921 (La. App. 2 Cir. 1990), writ denied, 566
So. 2d 398 (La. 1990). The trial judge is vested with
broad discretion to grant a motion for mistrial where
no other remedy would afford relief or where circum­
stances indicate that justice may not be done if the
trial continues. This Court should not disturb the trial

App. 25
court’s determination unless there is an abuse of dis­
cretion. Denton u. Vidrine, 2006-0141 (La. App. 1 Cir.
12/28/06), 951 So. 2d 274, writ denied, 2007-0172 (La.
5/18/07), 957 So. 2d 152.
The trial court did not err in refusing Ms. Wil­
liams’s motion for mistrial. On cross-examination, Ms.
Killough stated, “Oh, do you know what, I did see some,
some statements that were bank accounts for her, I
want to say I did now that I remember, but it was not
helpful at all. It didn’t change my report. It didn’t show
any payments to Mr. Houston.” Under the circum­
stances of this case, the trial court’s denial of the mis­
trial was not an abuse of discretion.
Prescription of trust claims
Ms. Williams argues that all claims from the Trust
prescribed and should not have been presented to the
jury. She claims the breach of fiduciary duty is gov­
erned by the two- and three-year peremptive periods
set forth in La. R.S. 9:2234.
La. R.S. 9:2234 provides, in pertinent part:
A. An action for damages by a beneficiary
against a trustee for any act, omission, or
breach of duty shall be brought within two
years of the date that the trustee renders, by
actual delivery or mail to the beneficiary, . . .
an accounting for the accounting period in
which the alleged act, omission, or breach of
duty arising out of the matters disclosed
therein occurred. However, such actions shall

App. 26
in all events, even as to actions within two
years of disclosure, be filed within three years
of the date that the trustee renders an ac­
counting for the accounting period in which
the alleged act, omission, or breach of duty oc­
curred.
B. Any action by a beneficiary against a
trustee other than those described on Subsec­
tion A of this Section is prescribed by two
years beginning from the date that the trustee
renders his final account to the beneficiary.
The trust accounting is governed by La. R.S.
9:2088, which provides, in pertinent part:
A. A trustee is under a duty to a beneficiary
to keep and render clear and accurate ac­
counts of the administration of the trust. If
the trust is revocable, the trustee has a duty
to account to the settlor only.
B. A trustee shall render to a beneficiary or
his legal representative at least once a year a
clear and accurate account covering his ad­
ministration for the preceding year . . . Each
annual account shall show in detail all re­
ceipts and disbursements of cash and all re­
ceipts and deliveries of other trust property
during the year, and shall set forth a list of all
items of trust property at the end of the year.

D. A written approval by a beneficiary or his
legal representative of an account rendered by
a trustee shall be conclusive against the

App. 27
beneficiary with respect to all matters dis­
closed in the account!.]
The two- and three-year periods of limitation pro­
vided for in La. R.S. 9:2234 are peremptive periods that
are triggered by an accounting rendered and delivered
by the trustee. The burden is on the trustee to show
when he made an accounting sufficient to trigger the
commencement of the time periods. Cook v. Cook, 20040422 (La. App. 4 Cir. 11/10/04), 888 So. 2d 1061.
Ms. Williams and Mr. Chavanne, the Trust’s ac­
countant, both testified that they met with Mr. Hou­
ston to discuss the Trust’s transactions and bank
statements. Ms. Williams also stated that tax returns
were filed at the end of every year. Neither Ms. Wil­
liams nor Mr. Chavanne testified that Mr. Houston was
given a copy of the accounting, as required by La. R.S.
9:2088. When the issue of prescription was brought be­
fore the trial court, the trial court stated prescription
had not begun to run because the requirement of ac­
tual delivery or delivery by mail means it has to be in
writing. The trial court further stated, “[I] read numer­
ous cases dealing with this and what I’ve heard does
not amount to an accounting. Sitting down and going
over his accounts, periodically going over expenditures
and stuff that I heard, that doesn’t amount to an ac­
counting to me under the statute. It doesn’t.”
La. R.S. 9:2088 requires an annual accounting be
personally given or mailed to the beneficiary of the
trust. The annual accounting is required to show in de­
tail all cash receipts and disbursements, all receipts

App. 28
and deliveries of trust property, and must set forth a
list of all items of trust property. This accounting must
be delivered to the beneficiary, not simply discussed.
The testimony of financial discussions and going over
bank statements with Mr. Houston does not show that
an accounting of all cash transactions, trust property
transactions, and list of all trust property was deliv­
ered to Mr. Houston. We find no error in the trial
court’s reasoning and conclude that Mr. Roos’s claims
against Ms. Williams for breach of fiduciary duty as
trustee are not prescribed.
DeSoto Parish property
Ms. Williams argues that despite a pretrial ruling
on the issues pending in DeSoto Parish, improper evi­
dence and testimony was still presented to the jury re­
sulting in undue prejudice. The transfer of a mineral
interest in DeSoto Parish was declared a nullity be­
cause Mr. Houston transferred the property in his in­
dividual capacity, when the mineral interest had
already been placed into the Trust. J-W Operating Co.
v. Olsen, 48,756 (La. App. 2 Cir. 1/15/14), 130 So. 3d
1017, writ denied, 2014-0313 (La. 4/11/14), 137 So. 3d
1217.
In ruling on the motion in limine regarding the
DeSoto Parish suit, the trial court stated:
I understand that the transfer is a nullity, be­
cause of his - him executing, I guess, the
transfer in his individual capacity. He’s trying
to show that she did some acts, including this

App. 29
sale, that these acts were a breach of her duty.
That has not been litigated. That, in fact, was
indicated by the judge in the wrong court.

But it was not addressed, and the Court would
not even address it. The Court said you’re in
the wrong place, so I’m going to give the plain­
tiffs a chance to address whether or not she
breached her duty. It was never addressed in
DeSoto Parish[.]
An individual trustee shall not directly or indi­
rectly buy or sell property for the trust from or to him­
self or his relative, employer, employee, partner, or
other business associate, unless the trust instrument
provides otherwise, or unless specifically authorized by
a court of competent jurisdiction, after a contradictory
hearing. La. R.S. 9:2085. A violation by a trustee of a
duty he owes to a beneficiary as trustee is a breach of
trust. La. R.S. 9:2081.
As stated previously, the trial court is granted
broad discretion in its evidentiary rulings, which will
not be disturbed absent a clear abuse of that discre­
tion. Johnson, supra.
Mr. Roos alleged Ms. Williams breached her fidu­
ciary duty to the Trust. Part of that allegation included
evidence of self-dealing. Mr. Roos presented evidence
that Mr. Houston sold a mineral interest to Mr. DeMoss. Ms. Williams agreed to buy half of the interest
from Mr. DeMoss. Ms. Williams was then able to testily

App. 30
that she bought the interest in order to put it back in
the Trust.
The purpose of this testimony was not to declare
the sale a nullity, which had already occurred in
DeSoto Parish, but to show evidence of a breach of fi­
duciary duty. The trial court was within its discretion
by allowing the evidence to be presented. The ruling
was not erroneous. The evidence was relevant to Mr.
Roos’s case in alleging Ms. Williams was engaging in
self-dealing. The testimony regarding the DeSoto Par­
ish property was in accordance with the motion in
limine ruling. This assignment lacks merit.
Improper jury charges
Ms. Williams argues that improper charges to the
jury warrant a new trial. She claims there was confu­
sion regarding the instructions on when to close a suc­
cession, whether there was a duty to file accountings
with the court, and whether Ms. Williams had a height­
ened duty because of special skill or expertise.
Trial courts are given broad discretion in formu­
lating jury instructions, and a trial court judgment
should not be reversed so long as the charge correctly
states the substance of the law. The trial court is re­
sponsible for reducing the possibility of confusing the
jury and may exercise the right to decide what law is
applicable and what law the trial court deems appro­
priate. The charge must correctly state the law and be
based on evidence adduced at trial. Jeff Mercer, LLC v.
State through Dep’t ofTransp. & Dev., 51,371 (La. App.

App. 31
2 Cir. 6/7/17), 222 So. 3d 1017, writ denied, 2017-1442
(La. 12/5/17), 231 So. 3d 625, cert, denied, 138 S. Ct.
1566, 200 L. Ed. 2d 746 (2018).
The relevant jury charges are as follows:
As a result of Ms. Williams’ actions as ex­
ecutrix of the Estate of Fred L. Houston, Roos
claims that:
1.

She breached her fiduciary duty by fail­
ing to close the succession as soon as ad­
visable.

2.

She breached her fiduciary duty by fail­
ing to file accurate and complete ac­
countings of the estate.

The trustee must exercise reasonable
care and skill, considering the purposes,
terms, distribution requirements, and other
circumstances of the trust. A trustee who has
special skills or expertise, or has held herself
out as having special skills or expertise, has a
duty to use those special skills or expertise.
A trustee has a duty to a beneficiary to
keep and render clear and accurate accounts
of the administration of the trust. A trustee
shall render to the beneficiary or his legal rep­
resentative at least once a year a clear and ac­
curate account covering her administration
for the preceding year. This annual account
must show in detail all receipts and disburse­
ments of cash and all receipts and deliveries
of other trust property during the year, and

App. 32
shall set forth a list of all items of trust prop­
erty at the end of the year.

A succession representative has a duty to
close the succession as soon as advisable[.] An
independent succession representative shall
file an account on the application of any inter­
ested person or when ordered by the court.
We find no confusion in these instructions,
whether read separately or in conjunction with the re­
mainder of the instructions. The jury charge did not
state the succession had to be closed within a particu­
lar time period. Ms. Williams admits that the trial
court correctly recited the provision of La. C.C.P. art.
3197 concerning the duty to close a succession as soon
as advisable. Mr. Roos’s claim was worded in the same
manner, “as soon as advisable.” The fact that Mr. Roos’s
claim was labeled as a “fiduciary” duty, when Ms. Wil­
liams argues it should have been labeled as a “general”
duty, does not rise to the level of jury confusion.
Ms. Williams argues it was an erroneous charge
regarding the claims of Mr. Roos that Ms. Williams, as
Independent Executrix of the Estate, owed a fiduciary
duty to file a complete and accurate accounting with
the court. Again, Ms. Williams admits the trial court
correctly stated the law regarding the duty to file an
accounting. Mr. Roos claimed Ms. Williams failed to file
the accounting. The jury was given the correct law to
apply. It was up to the jury to apply the evidence to the
law and decide whether or not Ms. Williams breached

App. 33
her duty. There is no confusion between the claim and
law.
Ms. Williams also admits the trial court correctly
recited La. R.S. 9:2090 in regards to special skill or ex­
pertise. She argues there was no evidence that she ever
made any representations to Mr. Houston regarding
any special skills or expertise.
When a law is clear and unambiguous and its ap­
plication does not lead to absurd consequences, the
law shall be applied as written. La. C.C. art. 9. La. R.S.
9:2090(B) states, “A trustee who has special skills or
expertise, or has held himself out as having special
skills or expertise, has a duty to use those special skills
or expertise.” (Emphasis added.) The law is clear. Ms.
Williams was not required to hold herself out as having
a special skill in order to have a duty to use her special
skills or expertise. The jury charge regarding special
skill was not improper. This assignment of error lacks
merit.
New trial or judgment notwithstanding the verdict
Ms. Williams argues the trial court erred by not
granting a new trial or judgment notwithstanding the
verdict. A new trial shall be granted, upon contradic­
tory motion of any party, in the following cases:
(1) When the verdict or judgment appears
clearly contrary to the law and the evidence.
(2) When the party has discovered, since the
trial, evidence important to the cause, which

App. 34
he could not, with due diligence, have ob­
tained before or during the trial.
(3) When the jury was bribed or has behaved
improperly so that impartial justice has not
been done.
La. C.C.P. art. 1972.
A new trial may be granted in any case if there is
good ground therefor, except as otherwise provided by
law. La. C.C.P. art. 1973. A new trial is mandated only
upon a showing of jury misconduct which is of such a
grievous nature as to preclude the impartial admin­
istration of justice. Otherwise, the granting of a new
trial is left to the sound discretion of the trial court.
Goldsby, supra.
The motion for a judgment notwithstanding the
verdict (“JNOV”) may be granted on the issue of liabil­
ity or on the issue of damages or on both issues. La.
C.C.P. art. 1811. A JNOV is warranted when the facts
and inferences point so strongly and overwhelmingly
in favor of one party that the court believes reasonable
persons could not arrive at a contrary verdict. Goldsby,
supra.
As already discussed, the verdict reached by the
jury in this case was reasonable based on the evidence
presented at trial. The evidence did not point so
strongly in favor of Ms. Williams that a reasonable jury
could not reach a different conclusion. The trial court
did not abuse its discretion in denying the motion for
a JNOV or new trial.

App. 35
Unreasonable expenses and attorney fees
Ms. Williams argues the executor charges to the
Estate with accompanying expenses and attorney fees
were unreasonable. As noted above, Mr. Roos served as
Independent Executor of the Estate, as well as an at­
torney in the litigation on behalf of the Estate.
It has long been recognized in Louisiana law that
an executor of a succession may obtain an attorney to
aid in the carrying out of the executor’s duties and to
defend the succession against adverse claims made
against it. Succession of Jenkins, 481 So. 2d 607 (La.
1986). Courts have also recognized that the costs of
such legal representation may be charged to the suc­
cession. Atkins v. Roberts, 561 So. 2d 837 (La. App. 2
Cir. 1990). The courts have made the distinction, how­
ever, that where the legal representation is primarily
for the personal benefit of the executor and not the es­
tate, such fees may not be paid from the property of the
succession. Succession of Haydel, 606 So .2d 42 (La.
App. 4 Cir. 1992). Whether or not an attorney’s work
was for the benefit of the succession estate is a ques­
tion of fact that cannot be set aside absent manifest
error. In re Succession of Brazan, 07-566 (La. App. 5
Cir. 12/27/07), 975 So. 2d 53.
La. C.C.R art. 3351.1 states, in pertinent part:
B. Unless expressly stated in the testament
appointing the succession representative, if
the succession representative serves as an at­
torney for the succession or for the succession
representative, the succession representative

App. 36
shall not receive compensation both as a suc­
cession representative and as an attorney for
the succession or for the succession repre­
sentative; however, the compensation of a suc­
cession representative shall be reduced by the
amount of compensation received and which
was attributable to the performance of the du­
ties as attorney for the succession or for the
succession representatives.
C. The provisions of Paragraphs A and B of
this Article limiting compensation received by
a succession representative may be waived
upon written approval by the heirs and lega­
tees of the decedent owning a two-thirds in­
terest in the succession.
La. C.C.P. art. 3351 states, in pertinent part:
In the absence of a provision in the testament
or an agreement between the parties, the ad­
ministrator or executor shall be allowed a
sum equal to two and one-half percent of the
amount of the inventory as compensation for
his services in administering the succession.
The court may increase the compensation
upon a proper showing that the usual commis­
sion is inadequate.
A provisional administrator or an administra­
tor of a vacant succession shall be allowed fair
and reasonable compensation by the court for
his services.
The compensation of a succession representa­
tive shall be due upon the homologation of
his final account. The court may allow an

App. 37
administrator or executor an advance upon
his compensation at any time during the ad­
ministration.
Mr. Roos was appointed executor of Mr. Houston’s
succession on September 17, 2010. Mr. Roos enrolled
attorneys from the law firm of Wiener, Weiss, and
Madison (“WWM”). The trial concluded on November
15,2016. At the time the trial concluded, Mr. Roos, and
his legal representation, had been involved in this liti­
gation for just over six years. He brought this suit for
the benefit of the succession, not for the benefit of him­
self individually.
When Mr. Roos was appointed, the trial court exe­
cuted a joint motion and order, with the consent of Mr.
Roos and Ms. Williams. It was agreed Mr. Roos would
be compensated $365 per hour and his attorneys “shall
be billed at the hourly rates customarily charged by
WWM for services rendered with respect to succession
matters!.]” Mr. Roos filed with the trial court notices of
the intent to distribute funds before any legal fees
were ever paid. LSU is the universal legatee of Mr.
Houston’s Estate and did not oppose Mr. Roos’s re­
quests for payment. The trial court found the attorney
fees to be reasonable. Having reviewed the extensive
record in this matter, we find no abuse of discretion in
the trial court’s findings.

App. 38
CONCLUSION
For these reasons, the jury verdict and judgment
of the trial court are affirmed. Costs of this appeal are
cast to appellant, Hanh Williams.
AFFIRMED.

App. 39
STATE OF LOUISIANA
COURT OF APPEAL, SECOND CIRCUIT
430 Fannin Street
Shreveport, LA 71101
(318) 227-3700

DOCKET NO: 52,181-CA
SUCCESSION OF
FRED LANGFORD HOUSTON
ORDER OF RECUSAL
The Judges of the Court of Appeal, Second Circuit
listed below hereby recuse themselves under the au­
thority of Canon 2 of the Code of Judicial Conduct.
Shreveport, Louisiana, this 16th day of August, 2018.
/s/ Felicia Toney Williams
Judge Felicia Toney
Williams

/s/ Milton Moore, III
Judge Milton Moore,
III

Is/ Frances J. Pitman
Judge Frances J.
Pitman

/s/ Shonda D. Stone
Judge Shonda D.
Stone

/s/ Jeff Cox
Judge Jeff Cox

/s/ M. Stephens
Judge M. “Jimbo”
Stephens

/s/ Jay B. McCallum_____
Judge Jay B. McCallum

App. 40
Filed: August 17. 2018
/s/ Lillian Evan Richie
Clerk of Court
* Chief Judge Henry N. Brown, Jr., and Judge Jeanette
G. Garrett entered prior declarations of recusal.

App. 41
STATE OF LOUISIANA
COURT OF APPEAL, THIRD CIRCUIT
P.O. Box 16577
Lake Charles LA 70616
(337) 433-9403
Lawrence Wayne Pettiette Jr.
Pettiette, Armand &
Dunkelman
P O Box 1786
Shreveport LA 71166-1786

Joseph Samuel Woodley
Pettiette, Armand &
Dunkelman
P. O. Box 1786
Shreveport LA 71166-1786

Judgment on rehearing
rendered and mailed to all
parties or counsel of record
on February 20, 2019
REHEARING ACTION: February 20, 2019
Docket Number: 18 00807-CM
SUCCESSION OF FRED LANGFORD HOUSTON
Appealed from OTHER Parish Case No. 525,127
BEFORE JUDGES:
[SRC]

Hon. Sylvia R. Cooks

[SJG]

Hon. Shannon J. Gremillion

[DKS]

Hon. D. Kent Savoie

As counsel of record in the captioned case, you are
hereby notified that the ruling for the application for
rehearing filed by Hanh T. Williams is:

App. 42
Motion for Leave of Court to File Supple­
mental Brief: DENIED. Motion for Leave to
Allow Appellant to Oppose Appellee’s Request
for Additional Briefing and Motion to Strike:
DENIED AS MOOT. REHEARING DE­
NIED.
cc: Marjorie L. Frazier, Counsel for the Appellee
Roger Joseph Naus, Counsel for the Appellee
Seth M. Moyers, Counsel for the Appellee
Charles E. Tabor, Counsel for the Appellee
John McGinty Frazier, Counsel for the Appellee

App. 43
SUCCESSION

NO: 525,127

OF

1st JUDICIAL
DISTRICT COURT

FRED LANGFORD
HOUSTON

PARISH OF CADDO
STATE OF LOUISIANA

JUDGMENT
(Filed Dec. 15, 2016)
This matter came on for jury trial on the merits
beginning on the 31st day of October, 2016, the jury
having handed down its verdict on the 15th day of No­
vember, 2016.
PRESENT IN
COURT: Charles E. Tabor Marjorie L. Frazier and
Armand L. Roos, representing the law firm
of Wiener, Weiss & Madison, Attorneys for
Plaintiff, Armand L. Roos in his capacity as
Dative Independent Executor of the Succes­
sion of Fred Langford Houston; and
Lawrence W. Pettiette, Jr. and Joseph S.
Woodley, representing the law firm of Petti­
ette, Armand, Dunkelman, Woodley, Byrd
& Cromwell, LLP, Attorneys for Defendant,
Hanh T. Williams
CONSIDERING the verdict of the jury as set
forth in the Proposed Jury Verdict Form filed in the
record on November 15, 2016 and placed in the
minutes of the above-captioned case and there being
good cause therefore:

App. 44
IT IS FURTHER ORDERED, ADJUDGED
AND DECREED that there be judgment herein in fa­
vor of the Succession of Fred Langford Houston and
against Hanh T. Williams, awarding to the Succession
of Fred Langford Houston,
1)

ONE MILLION, ONE HUNDRED THOU­
SAND AND 00/100 DOLLARS ($1,100,000.00),
constituting damages for Hanh T. Williams’
breaches of fiduciary duty as trustee of the
Fred L. Houston Trust, and

2)

FOUR HUNDRED SIXTY THOUSAND, SIX
HUNDRED FIVE AND 00/100 DOLLARS
($460,605.00), constituting damages for Hanh
T. Williams’ breaches of fiduciary duty as ex­
ecutrix of the Succession of Fred Langford
Houston.

plus judicial interest on all of the foregoing at the legal
rate from the date of judicial demand until paid, to­
gether with all costs of these proceedings.
VERDICT RENDERED in open court on the
15th day of November, 2016.
JUDGMENT READ AND SIGNED this 15th
day of November December, 2016, in Shreveport, Lou­
isiana.
/s/ Ramon Lafitte
JUDGE, 1ST JUDICIAL
DISTRICT COURT

App. 45
SUCCESSION

NO: 525,127

OF

1st JUDICIAL
DISTRICT COURT

FRED LANGFORD
HOUSTON

PARISH OF CADDO
STATE OF LOUISIANA

PROPOSED JURY VERDICT FORM
(Filed Nov. 15, 2016)
Trustee
1.

Did the plaintiffprove that Hanh T. Williams acted
unreasonably in the manner in which she carried
out her duties as the Trustee?
Yes

S

No

Proceed to question 2.
2.

Did Hanh Williams breach her fiduciary duty to
Mr. Houston by having trust property (the DeSoto
Parish Mineral Interest) sold to her business asso­
ciate and then purchasing that property while serv­
ing as trustee of Mr. Houston’s Trust ?
Yes

No

Proceed to question 3.
3.

Did Hanh Williams breach her fiduciary duty to
Mr. Houston by distributing excessive amounts of
money to herself from the Trust?
Yes

No

Proceed to question 4.

App. 46
4.

Did Hanh Williams breach her fiduciary duty to
Mr. Houston by failing to administer the Trust
solely for Mr. Houston’s benefit?
Yes

S

No

If you answered yes to questions 2,3, or 4, proceed
to question 5.
If you answered no to questions 2,3, and 4, proceed
to question 6.
5.

How much in damages does Hanh Williams owe, if
any, for her breach(es) of her fiduciary duty as
Trustee of Mr. Houston’s Trust?
$ 1.188.887.78 1.1 Million
Proceed to question 6.
Independent Executrix

6.

Did Hanh Williams breach her fiduciary duty as
executrix of Mr. Houston’s Estate by failing to file a
complete and accurate accounting with the court?
Yes

No

Proceed to question 7.
7.

Did Hanh Williams breach her fiduciary duty as
executrix of Mr. Houston’s Estate by failing to close
the succession as soon as advisable?
Yes

No

Proceed to question 8.
8.

Did Hanh Williams breach her fiduciary duty as
executrix of Mr. Houston’s Estate by executing a

App. 47
lease between the Estate and her company, Plati­
num Interests, LLC?
Yes

S

No

Proceed to question 9.
9.

Did Hanh Williams breach her fiduciary duty as
executrix of Mr. Houston’s Estate by distributing
unauthorized amounts to herself from the Estate
while serving as executrix?
No

Yes

Proceed to question 10.
10. Did Hanh Williams’ actions as executrix constitute
gross negligence?
Yes

S

No

Proceed to question 11.
11. If you answered yes to questions 6, 1, 8, 9, or 10,
how much, if any, is Ms. Williams liable to pay to
Mr. Houston’s Estate for her breach(es) of fiduciary
duty as Independent executrix?
8 1.188.887.78 $460,605
Have the foreman sign and date this verdict form
and return to the judge.
Caddo Parish, Louisiana, this 15 day of November,
2016.
/s/ Jammie R. Bradford
Jury Representative

App. 48
The Supreme Court of the State of Louisiana
SUCCESSION OF FRED LANGFORD HOUSTON
No. 2019-C-0458
IN RE: Hanh T. Williams - Other; Applying Writ of Cer­
tiorari and/or Review; Parish of Caddo, 1st Judicial
District Court, Div. J, Number: 525,127; Court of Ap­
peal, Second Circuit, Number: 52,181-CA; Transferred
to Court of Appeal, Third Circuit, Number: 18 00807CM
May 20, 2019
Denied.
JLW
BJJ
GGG
MRC
JDH
SJC
JTG

